No. 20-1129
IN THE SUPREME COURT OF THE UNITED STATES
_________________
SCOTT PHILLIP FLYNN, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 19th day of May 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 7,180 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
May 19, 2021

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 19, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-1129
FLYNN, SCOTT PHILLIP
USA

IAN M. COMISKY
FOX ROTHSCHILD LLP
2000 MARKET STREET
20TH FLOOR
PHILADELPHIA, PA 19103
215-299-2000
ICOMISKY@FOXROTHSCHILD.COM
HARRY SANDICK
PATTERSON BELKNAP WEBB & TYLER LLP
1133 AVENUE OF THE AMERICAS
NEW YORK, NY 10036
212-336-2000
HSANDICK@PBWT.COM
JEREMY H. TEMKIN
MORVILLO ABRAMOWITZ GRAND IASON &
ANELLO P.C.
565 FIFTH AVENUE
NEW YORK, NY 10017
212-880-9470
JTEMKIN@MAGLAW.COM
212-856-9494(Fax)

